No.

Supreme (Enurt ofWift Inttei states
NORINE CAVE
Petitioner,
v.
DELTA DENTAL OF CALIFORNIA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Norine Cave, hereby certify that on this 20th day of August, 2020,1 caused
three copies of the Petitioner’s PETITION FOR A WRIT OF CERTIORARI in
support of of Petitioner to be served by U.S. mail on the following counsel:
DENNIS G. ROLSTAD (SBN 150006)
drolstad@hinshawlaw.com
PHILIP BARILOVITS (SBN 199944)
pbarilovits@hinshawlaw.com
BRIAN S. WHITTEMORE (SBN 241631)
bwhittemore@hinshawlaw.com
HINSHAW & CULBERTSON LLP
One California Street, 18th Floor
San Francisco, CA 94111
Telephone: 415-362-6000
Facsimile: 415-834-9070
Attorneys for Appellee
DELTA DENTAL OF CALIF

M).hJI

Norine Cave
Petitioner, Pro Se
278 Mossy Way N.W.
Kennesaw, GA, 30152

norinecave@att.net
404-963-0309
21

